Report No. D-2007-041     January 2, 2007




         Navy General Fund Vendor
      Payments Processed by Defense
      Finance and Accounting Service
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ACRN                  Accounting Classification Reference Number
CPBL                  Commercial Pay Business Line
DCN                   Document Control Number
DFAS                  Defense Finance and Accounting Service
DoD FMR               Department of Defense Financial Management Regulation
DoN                   Department of the Navy
EDI                   Electronic Data Interchange
EDM                   Electronic Data Management
EFT                   Electronic Funds Transfer
MICP                  Managers’ Internal Control Program
NGF                   Department of the Navy General Fund
PIIN                  Procurement Item Identification Number
SFFAS                 Statement of Federal Financial Accounting Standards
STARS                 Standard Accounting and Reporting System
STARS-FL              STARS Field Level
STARS-HCM             STARS Headquarters Claimant Module
VPPL                  Vendor Payment Product Line
                Department of Defense Office of Inspector General
Report No. D-2007-041                                                      January 2, 2007
   (Project No. D2005-D000FC-0151.000)

          Navy General Fund Vendor Payments Processed by
                Defense Finance and Accounting Service

                                 Executive Summary

Who Should Read This Report and Why? Department of the Navy personnel
responsible for financial management, and Defense Finance and Accounting Service
individuals responsible for processing, paying, or accounting for vendor payment
transactions should read this report. The report discusses the reliability and auditability
of vendor payment transactions and associated Accounts Payable balances processed by
the Defense Finance and Accounting Service for the Department of the Navy General
Fund.

Background. The Defense Finance and Accounting Service provides professional
finance and accounting services for the Department of the Navy and is responsible for
processing and paying Department of the Navy General Fund vendor payments. Vendor
payments are authorized Government disbursements made for goods and services
purchased against obligations. The disbursement of funds for vendor payments must be
made in accordance with applicable laws and regulations including the Prompt Payment
Act, which requires that vendors be paid interest on any payment remitted beyond its due
date.

Results. This audit was performed to assess the effectiveness and reliability of vendor
payment transactions processed by the Defense Finance and Accounting Service for the
Department of the Navy General Fund. The processes for recording and supporting
Department of the Navy General Fund vendor payment transactions were not effective.
Specifically, corresponding Accounts Payable were not recorded timely, and vendor
payment transactions were not adequately supported and recorded in compliance with
published guidance.

Accounts Payable transactions were not recorded timely in the Defense Finance and
Accounting Service accounting system. Specifically, 89 of 199 vendor payment
transactions sampled were not recorded in compliance with the DoD Financial
Management Regulation, which requires establishing the Accounts Payable on the same
day as performance notification is received. The timely establishment of Accounts
Payable transactions would allow for immediate recognition of liabilities. As a result,
Accounts Payable balances totaling $212,730,742 were misstated in Department of the
Navy General Fund (finding A).

Additionally, the Defense Finance and Accounting Service did not adequately support
33 of 199 vendor payment transactions sampled. These included 25 transactions for
which the Defense Finance and Accounting Service did not provide supporting
documentation and 8 transactions that contained errors between what was recorded in
STARS One Pay and the supporting documents provided. Vendor payment processing
required stronger management controls and clerical support. As a result, vendor payment
transactions totaling $143,583,031 were unsupported or contained material errors
potentially affecting Department of the Navy General Fund financial reports (finding B).
We also reviewed the managers’ internal control program as it related to the processing
of vendor payment transactions and identified that Defense Finance and Accounting
Service internal controls were not adequate. See the Findings section of the report for the
detailed recommendations.

Management Comments and Audit Response. The Director, Defense Finance and
Accounting Service concurred with ten of the recommendations, concurred in principle
with one recommendation, and nonconcurred with one recommendation. We disagree
with the Director that our recommendation should be directed to the Navy. Because the
Defense Finance and Accounting Service is the accountant and preparer of the Navy
financial statements, it is responsible for implementing internal control procedures to
detect and prevent Accounts Payable misstatements in the financial statements. We
request that the Director reconsider her position and provide additional comments. The
Director also stated that the Defense Finance and Accounting Service records all
Accounts Payable transactions immediately. We disagree because we identified 67
accounts payable transactions that were recorded 3 or more days after the Defense
Finance and Accounting Service received notification. Additionally, although the
Director concurred with our recommendation to suspend payment when key data
elements are absent in the supporting documentation, we consider the comment
unresponsive. The Director concurred on the basis of being compliant with the DoD
Financial Management Regulation. Consequently, we revised our recommendation to
suspend payment when key data elements are not clearly supported by documentation.
We request that the Director reconsider the revised recommendations and provide
comments on the final report by February 28, 2007. The Assistant Secretary of the Navy,
Financial Management and Comptroller did not respond to the draft report. Therefore,
we request that the Assistant Secretary of the Navy, Financial Management and
Comptroller provide comments on the final report by February 28, 2007. See the Finding
section of the report for a discussion of Director, Defense Finance and Accounting
Service – Cleveland comments and audit response, and the Management Comments
section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                          i

Background                                                 1

Objectives                                                 3

Review of Internal Controls                                3

Findings
     A. Establishing Accounts Payable Transactions         5
     B. Supporting Accounts Payable Transactions          11
         Other Matters of Interest – Obligation Data      15

Appendixes
     A. Scope and Methodology                             19
          Prior Coverage                                  20
     B. Statistical Sampling Methodology                  21
     C. Audit Sample Data                                 22
     D. Report Distribution                               28

Management Comments
     Defense Finance and Accounting Service – Cleveland   29
Background
    The Defense Finance and Accounting Service (DFAS) provides finance and
    accounting services for the Department of the Navy (DoN). This audit focused on
    Navy General Fund (NGF) vendor payments processed by DFAS.

    DFAS Commercial Payment. The Commercial Pay Business Line (CPBL) at
    DFAS Columbus is responsible for entitlement determination and payments to all
    businesses that have provided goods or services to DoD. The CPBL consists of
    two Product Lines: Contract Pay Services and Vendor Pay Services. Pursuant to
    the DFAS Business Evolution Plan, the two product lines were consolidated into
    the CPBL at the end of FY 2001. Our audit focused on vendor payments
    processed within the DFAS Vendor Payment Product Line (VPPL). The VPPL
    operates from 20 DFAS sites worldwide and is responsible for payment of
    contracts not administered by the Defense Contract Management Agency. For the
    purpose of this audit, we defined vendor payments as Government disbursements
    made for goods and services purchased against obligations.

    Laws and Regulations. NGF vendor payments are governed by several laws and
    regulations. The following criteria were used to help accomplish the objective of
    this audit.

           •   Documentary requirements for obligations were established under
               section 1501, chapter 15, title 31, United States Code, (31 U.S.C.
               1501).

           •   5 C.F.R. Part 1315 (2003) establishes requirements for the Prompt
               Payment Act of 1999.

           •   Statement of Federal Financial Accounting Standards No. 1 (SFFAS
               No. 1) provides accounting standards for recording and reporting
               assets and liabilities.

           •   DoD Financial Management Regulation, volume 3, chapter 8,
               section 80302 specifies that an amount should be recorded as an
               obligation only when supported by documentary evidence of the
               transaction.

           •   DoD Financial Management Regulation, volume 4, chapter 9 specifies
               the requirements for recording an Accounts Payable transaction.

           •   DoD Financial Management Regulation, volume 10, chapter 17
               specifies the guidance for implementing and using Electronic
               Commerce, which includes Electronic Data Interchange (EDI) and
               Electronic Funds Transfer (EFT).

           •   DoD Financial Management Regulation, volume 5, chapter 11,
               Appendix D establishes procedures for documenting and support
               public vouchers.



                                        1
                    •    Under Secretary of Defense (Comptroller)/Chief Financial Officer
                         Memorandum, “Financial Improvement Initiative Business Rules”
                         June 23, 2004, states that the client should be able to provide
                         supporting documentation promptly to auditors upon request.

                    •    DoD Office of Inspector General (OIG) Memorandum, “Auditor
                         Access for Financial Statement Audits,” January 24, 2005, provides
                         guidelines for providing supporting documentation during a financial
                         statement audit.

           Payment Systems. The DFAS VPPL uses 18 different systems to make
           payments. Some systems support only a single commodity type (e.g., fuels,
           subsistence, Commissary items), while others are used at multiple sites for a
           variety of goods and services. We reviewed vendor payments processed within
           the Standard Accounting and Reporting System (STARS) including: STARS One
           Pay, STARS-Field Level (FL), and STARS-Headquarters Claimant Module
           (HCM). 1

           STARS One Pay is used by DFAS to process vendor payment transactions for
           NGF. When invoices are received by DFAS, they are entered into STARS One
           Pay, which is capable of retrieving and displaying invoice data based on search
           criteria (e.g., “Document Control Number” [DCN], “Procurement Item
           Identification Number” [PIIN], etc.).

           DFAS uses STARS-FL and STARS-HCM to account for vendor payments
           processed for NGF. STARS-FL provides a means of tracking allocated funds
           from the time they are authorized through the appropriations’ life cycles at the
           field level. STARS-FL is also designed to provide the Operating Location and
           Fund Administrator Activity with real-time financial data. STARS-HCM is used
           to support a majority of the DoN budget, using special coding to classify and
           track budget dollars. STARS-HCM is used to carry out financial management
           responsibilities. STARS-HCM is the official accounting system for all funds
           allocated to the Systems Commands, the Strategic Systems Project Office, and
           Office of Naval Research; and funds authorized for certain major Foreign Military
           Sales and orders from other agencies.

           DFAS is responsible for processing and paying invoices that are received in hard-
           copy and electronic formats. When DFAS receives a hard-copy invoice, it
           requires manual processing prior to the invoice being paid. Invoice processing
           involves identifying key data elements such as vendor name, invoice number, and
           invoice amount.

           EDI is a form of electronic commerce that involves an exchange of routine
           business information in a standard format. EDI allows DFAS to support
           contracting functions and improve accounting processes by reducing manual data
           entries. EDI also allows vendors to submit invoices directly into STARS,
           eliminating the need for DFAS personnel to re-enter invoice and contract data.


1
    For the purpose of our audit, any further reference in this report to STARS includes a review of data in
    the STARS One Pay System, STARS-FL, or STARS-HCM.

                                                        2
           Guidance for the use and implementation of EDI transactions is discussed in the
           DoD Financial Management Regulation (DoD FMR).


Objectives
           The overall objective was to determine whether Navy General Fund vendor
           payment transactions processed by Defense Finance and Accounting Service are
           being paid in an effective and reliable manner. Specifically, we planned to
           determine whether vendor payments were properly supported and paid in
           accordance with applicable laws and regulations. We also reviewed the adequacy
           of the Managers’ Internal Control Program (MICP) as it related to the overall
           objectives. See Appendix A for a discussion of the scope and methodology, and
           prior coverage related to the objectives.


Review of Internal Controls
           DoD Directive 5010.38, “Management Control (MC) Program,” and DoD
           Instruction 5010.40, “Management Control (MC) Program Procedures, “ require
           DoD organizations to implement a comprehensive system of management
           controls that provides reasonable assurance that programs are operating as
           intended and to evaluate the adequacy of the controls. 2

           Scope of the Review of the Managers’ Internal Control Program. We
           assessed the adequacy of DFAS management controls over the processing and
           recording of vendor payment transactions within STARS One Pay. Specifically,
           we analyzed DFAS management controls established for receiving and
           distributing mail containing invoice certification packages, the processing of
           invoices for payment, and the audit of invoices prior to disbursement.
           Additionally, we examined the electronic indexing of invoices received, the
           retention of key data and supporting documentation, and the timely recording of
           accounting data into the STARS One Pay system. We assessed management’s
           self-evaluation applicable to those controls.

           Adequacy of Managers’ Internal Controls. We detected weaknesses in the
           DFAS MICP as defined by DoD Instruction 5010.40. DFAS personnel located at
           various paying locations identified management control weaknesses, however
           corrective actions were not incorporated. For example, DFAS Norfolk
           recognized such weaknesses as missing vouchers and improper separation of duty
           and the Fleet Material Supply Office and DFAS Cleveland both have full access



2
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
    Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on January
    4, 2006.



                                                     3
           to STARS One Pay. In addition, response from ships regarding Fast Pay 3 reports
           were not annotated for receipt then returned, and special requisitions were not
           performed as intended due to transfer of personnel. DFAS Pensacola
           management identified problems with ensuring timely payments, reducing interest
           payments, and losing discounts due to the recent implementation of Electronic
           Data Management (EDM). DFAS Pensacola management also recognized
           problems involving incorrect use of Fast Pay clauses and lack of required receipts
           when receiving documentation from DoN Activities. However, management did
           not take the necessary steps to correct the problems they identified.

           In addition, our audit identified weaknesses that were not addressed by the DFAS
           Managers’ Internal Control Program (MICP). The DFAS MICP did not ensure
           that Accounts Payable transactions were established in a timely manner pursuant
           to the DoD FMR (see finding A). Recommendations A.1., A.2., and A.3., if
           implemented, will improve DFAS Vendor Pay policies, procedures, and
           management controls and will reduce the possibility of misstatement of the
           Accounts Payable line item on the NGF Balance Sheet, which will improve the
           ability of DoN to obtain an unqualified audit opinion during future fiscal years.
           Furthermore, the DFAS MICP did not ensure that key data elements and
           supporting documentation were adequately retained (see finding B).
           Recommendations B.1., B.2., and B.3., if implemented, will improve DFAS
           Vendor Pay policies, procedures, and management controls to ensure that key
           data elements and supporting documentation are adequately retained and readily
           available to internal and external users.

           Adequacy of Managers’ Self-Evaluation. DFAS managers performed quarterly
           reviews of their system of internal administrative and accounting controls to
           satisfy the management control requirements. They used quarterly Matrix and
           DFAS 5010.38, “Management Control Program, Assessable Unit Summary and
           Certification Statement,” reports to evaluate the Vendor Pay Assessable Unit.
           Managers based their quarterly certification statements on the results noted during
           the reviews of their respective assessable unit. However, in the self-evaluations,
           they did not identify the establishment of Accounts Payable and the retention of
           key data elements and supporting documentation as specific management control
           weaknesses because the self-evaluations did not incorporate those specific areas
           as part of the assessable unit. Therefore, managers did not identify or report these
           weaknesses.

           The Vendor Pay MICP, although comprehensive, was not complete. DFAS did
           not centrally manage the program. Even though the controls addressed the risk
           areas for each site, they did not promote central management of risk, material
           weaknesses detection, and related actions necessary to properly manage vendor
           pay processes. Consequently, Accounts Payable were not established in a timely
           manner, and key data elements and supporting documentation were not
           adequately retained. In addition, DFAS MICP did not adequately incorporate the
           necessary corrective actions needed to resolve internally detected weaknesses.


3
    The Fast Pay contract clause allows for contractor payment prior to verification that supplies have been
    received and accepted, under the limited conditions listed in Federal Acquisition Regulation 13.402 and
    Defense Federal Acquisition Regulation Supplement 213.402.

                                                       4
            A. Establishing Accounts Payable
               Transactions
            Accounts Payable transactions were not recorded timely in the DFAS
            accounting system. Specifically, 89 of 199 transactions sampled were not
            recorded on the same day that notification of performance was received by
            DFAS. This occurred because STARS One Pay will not permit the
            recording of Accounts Payable unless sufficient obligations have also
            been recorded in the accounting system and the DoD FMR does not
            require recording in accordance with SFFAS No. 1, “Accounting for
            Selected Assets and Liabilities.” As a result, NGF Accounts Payable
            balances were misstated.

Accounting for Liabilities
     SFFAS No. 1. defines Accounts Payable as, “amounts owed by a federal entity
     for goods and services received from, progress in contract performance made by,
     and rents due to other entities.” Further, when an entity accepts title to goods, the
     entity should recognize a liability for the unpaid amount. However, DoD FMR
     volume 4, chapter 9, section 090203 requires that Accounts Payable transactions
     be recorded when evidence of performance is received by the accounting station
     (DFAS). The DoN can improve the accuracy of liabilities reported in NGF
     financial statements if Accounts Payable transactions are established when goods
     or services are accepted. If invoices for goods are not available when financial
     statements are prepared, the amounts owed should be estimated. We noted DFAS
     is not accounting for liabilities in accordance with the DoD FMR and the DoD
     FMR did not incorporate key elements identified by SFFAS No. 1 pertaining to
     when an entity should recognize a liability.


Recording Accounts Payable Transactions in STARS
     Vendor Payments and Corresponding Accounts Payable Amounts. Accounts
     Payable for 89 of the 199 transactions were not recorded timely, even though
     DFAS had received and recorded evidence of performance from DoN certifying
     officials. DFAS did not comply with the DoD FMR requirement of recording
     Accounts Payable transactions on the same day notification of performance was
     received. We compared the date DFAS received notification of performance to
     the date DFAS actually recorded the Accounts Payable transactions in STARS
     One Pay. Our audit discovered 22 Accounts Payable transactions recorded within
     1 to 2 days from the time DFAS was notified by the DoN that notification of
     performance was received. The DoD FMR specifically requires the recording of
     an Accounts Payable on the same day that DFAS receives notification of
     performance from the DoN. However, a 1-or 2-day delay may be reasonable,
     depending on when DFAS received notification of performance from the DoN
     certifying official. However, the remaining 67 transactions were recorded 3 or
     more days after notification of performance was received. This is an
     unacceptable delay that impacts the accuracy of Accounts Payable balances. To


                                           5
           ensure the proper recognition of the liability in the correct accounting period,
           DFAS should give special attention to those Accounts Payable transactions that
           occur at the end of an accounting period. Table 1 provides a breakout of the
           number of days it took for DFAS to record an Accounts Payable in STARS One
           Pay. See Appendix C, Table C-1 for a complete listing of the 89 improperly
           established Accounts Payable transactions.

                                  Table 1. Recording of Accounts Payable 4

                                                                                                 Percent of
            Number of             Percent of                Days to         Transaction         Transaction
           Transactions          Transactions               Record           Amounts             Amounts

                 110                  55%                      0              $814,521,869          79%
                 22                   11%                    1– 2              $59,344,754           6%
                 43                   21%                   3 – 10            $107,032,106          10%
                 10                    5%                   11 – 20           $ 45,052,373           4%
                  8                    4%                   21 – 30             $1,292,484           1%
                  3                    2%                   31 – 45                 $6,684           0%
                  3                    2%                   46 – 61                 $2,341           0%

              Total 199              100%                                   $1,027,252,611          100%


           Impact on Financial Statements. When an account payable is not recorded in
           the correct accounting period, the key management assertions of Existence and
           Completeness 5 are not satisfied. The DoD FMR requires that Accounts Payable
           be recorded when evidence of performance is received. Although we identified
           22 Accounts Payable transactions that were recorded within 1 to 2 days, we did
           not consider this delay unreasonable given the current processing and accounting
           system environment. The remaining 67 Accounts Payable transactions
           represented a potential Accounts Payable misstatement totaling approximately
           $153.3 million on NGF Financial Statements. While DoN management has not
           yet represented the Accounts Payable line as being ready for audit, this condition
           must be corrected in order to improve the accuracy of amounts reported. As DoN
           and DFAS systems and procedures progress, DFAS should work towards meeting
           the DoD FMR requirement to record Accounts Payable transactions on the same
           day it receives notification of performance from DoN certifying activities.

           Our audit specifically identified 10 Accounts Payable transactions that were not
           recorded in the appropriate accounting period. Of 199 sampled transactions,
           10 transactions recorded in the wrong accounting period represented an error rate

4
    The percentages shown in the table represent only the values of sample transactions and cannot be
    representative of the population.
5
    Existence (or Occurrence) means that when a liability exists at a given date it has been recorded during
    the appropriate accounting period. Completeness means that the reported Accounts Payable amount
    includes all transactions.

                                                        6
           of 5 percent. 6 We were unable to select an audit sample that would enable us to
           quantify and project a potential misstatement for the overall population. Our
           results indicated that DoN and DFAS must improve the recording of Accounts
           Payable as required by standards in order to represent that Accounts Payable
           balances are fairly presented in all material aspects.

           Verifying Obligations to Record Accounts Payable. DFAS personnel advised
           us that STARS One Pay will not permit the recording of Accounts Payable unless
           sufficient obligations have also been recorded in the accounting system. When an
           invoice is entered into STARS One Pay for payment, One Pay electronically
           communicates with STARS-FL to verify the correct line of accounting and that an
           obligation with sufficient funds exists in order to process the payment. If
           sufficient funds are obligated, STARS-FL will reserve these funds until the
           disbursement is made and simultaneously establish an Accounts Payable for that
           specific invoice. If there are insufficient funds obligated, a reservation of funds
           will not occur and the Accounts Payable will not be established. SFFAS No. 1.
           requires that DoN recognize a liability for the unpaid amount of any goods or
           services when the goods or services are accepted. However, the DoD FMR
           allows for the recording of the Accounts Payable once “evidence of performance
           is received by the accounting station.” This deviates from SFFAS No. 1. which
           requires the recognition of the liability by recording an Accounts Payable
           transaction when an entity accepts title. DoN and DFAS must develop and
           implement a process that allows DoN activities to post or record Accounts
           Payable transactions in their accounting system upon acceptance of goods or
           services. The DoD FMR should be updated to require the recognition of a
           liability by an entity when goods or services are accepted and not wait until the
           accounting station (DFAS) has been notified.

           Currently, if the reservation of funds does not occur in STARS-FL, STARS One
           Pay automatically places the transactions in suspense until the correct line of
           accounting is entered into STARS One Pay or additional funds are obligated in
           STARS-FL. This current process prevents DoN and DFAS from recording
           Accounts Payable transactions in their accounting system as required, when the
           DoN has accepted the goods or services. A distinction must be made between the
           recording of Accounts Payable transactions and the establishment of an
           obligation. STARS should not prevent the recording of a valid and certified
           Accounts Payable transaction, a legal liability of DoN, just because the
           accounting systems do not have correct obligation data recorded. Valid
           obligations are necessary for the disbursement of funds but are not needed for
           recording a liability. In other words, the lack of correct corresponding obligation
           data in the accounting system does not relieve DoN from its requirement to
           properly account for liabilities when incurred.




6
    The percentage error rate represents only the values of sampled transactions and cannot be representative
    for the population.



                                                       7
Summary
    Financial Reporting Accuracy. The untimely recording of accounts payable
    transactions in DFAS accounting systems may materially impact the accuracy of
    Accounts Payable balances reported on NGF financial statements. If current
    policies, procedures, and accounting systems are not improved, the NGF
    Accounts Payable line will continue to be subject to misstatement, which will
    negatively impact the DoN ability to obtain an unqualified audit opinion for
    future fiscal years.

    Management Internal Control Program. We found material management
    control weaknesses that relate to recording accounts payable. The DFAS MICP
    did not identify timely recording of Accounts Payable transactions upon receipt of
    goods or services as an assessable unit. This was a material weakness because
    management had not established a method of ensuring compliance with SSAFS
    and the DoD FMR regarding accurate recording of accounts payable transactions.
    Recommendations A.1. through A.3., if implemented should correct this material
    internal control weakness.


Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer update the DoD Financial Management Regulation, volume
    4, chapter 9 to be in full compliance with Statement of Federal Financial
    Accounting Standards Number 1. “Accounting for Selected Assets and
    Liabilities.” Specifically the DoD Financial Management Regulation should
    require the recording of liabilities when an entity accepts title to goods or
    recognizes services as performed instead of when notification of performance
    is received by the accounting station.
    Management Comments. We did not receive comments from the Under
    Secretary of Defense (Comptroller)/Chief Financial Officer by the date requested
    in the report.

    Audit Response. We held discussions with representatives from the Under
    Secretary of Defense (Comptroller)/Chief Financial Officer. One of the
    representatives indicated that the revised DoD Financial Management Regulation,
    volume 4, chapter 9, was issued in November 2006. We reviewed the revised
    regulation and found that the revisions made to the regulation sufficiently address
    our recommendation. As a result, no additional comments are required for the
    final report.

    A.2. We recommend the Director of Defense Finance and Accounting
    Service Cleveland Central Site in conjunction with the Assistant Secretary of
    the Navy, Financial Management Comptroller improve the recording of
    Department of the Navy Accounts Payable transactions by revising current
    procedures that would allow for the immediate recognition of a liability upon
                                         8
acceptance of goods or services performed. Specifically the Defense Finance
and Accounting Service should:

      a. Use current accounting systems to ensure that all Accounts
Payable transactions are recorded immediately when the Defense Finance
and Accounting Service receives notification from the Department of the
Navy certifying official that the goods or services are received or performed.

Management Comments. The DFAS Cleveland Central Site Director concurred
and stated, “All commercial vendor pay Accounts Payable transactions are
recorded immediately” when DFAS receives notification from Department of the
Navy certifying officials that goods or services are received or performed. DFAS
identified a completion date for this recommendation as September 25, 2006, and
considers this recommendation closed.

Audit Response. The DFAS Cleveland Central Site Director’s comments are not
responsive. During the audit, 67 Accounts Payable transactions were recorded
between 3 and 61 days after DFAS received notification from Department of the
Navy certifying officials. We request that DFAS reconsider its position and
provide comments on the final report that identify what steps have been
developed or implemented to ensure that all Accounts Payable transactions are
recorded immediately when notification is received.

      b. Require the recording of Accounts Payable transactions
independent from the corresponding obligation data required for budgetary
accounting.

Management Comments. The DFAS Cleveland Central Site Director concurred
in principal and stated that the STARS-FL system is programmed to accept
Material Receipt data when entered, and that an Accounts Payable transaction is
processed independently from the corresponding obligation data. In addition, the
Director’s comments further clarified that DFAS does not have the ability to
ascertain when material receipt occurs. She stated, “Navy entities are responsible
for establishing obligations and for recording the receipt information into
STARS-FL.” DFAS identified a completion date for this recommendation as
October 24, 2006, and considers this recommendation closed.

       c. Establish procedures in conjunction with the Assistant Secretary of
the Navy, Financial Management Comptroller that allow Department of the
Navy certifying activities to record an Accounts Payable (liability)
transaction in the accounting system immediately upon acceptance of goods
or services.

Management Comments. The DFAS Cleveland Central Site Director concurred,
and stated, “Procedure and programming is established to use the Automated
Receipts Module (ARM) in One Pay by the Navy,” that posts liabilities into
STARS Accounting Modules automatically. The Director also stated that,
“DFAS does not have the ability to ascertain when the event of material receipt,”
occurs, further indicating that the process is dependent on Navy end-users to post
the Budgetary and Financial Data timely. DFAS identified a completion date for



                                    9
    this recommendation as October 24, 2006, and considers this recommendation
    closed.

    Audit Response. The DFAS Cleveland Central Site Director’s comments were
    partially responsive and indicate that Navy end-users are responsible for posting
    Budgetary and Financial Data timely. However, as the accountant and the
    preparer of the Department of the Navy Financial Statements, DFAS is
    responsible for ensuring that financial transactions are accounted for properly and
    in accordance with Department of Defense, Financial Management Regulations.
    We request DFAS reconsider its position and provide comments on the final
    report that address what steps have been developed or implemented to ensure that
    Accounts Payable transactions are established immediately upon acceptance of
    goods or services in accordance with established DoD Regulations.

    A.3. We recommend that the Department of the Navy and the Defense
    Finance and Accounting Service identify the accounts payable recording as
    an assessable unit and develop procedures to test compliance within Navy
    General Fund. Specifically, the Department of the Navy and the Defense
    Finance and Accounting Service should design and implement internal
    control procedures to detect and prevent a misstatement of reported
    Accounts Payable balances on Navy General Fund Financial Statements.

    Management Comments. The DFAS Cleveland Central Site Director
    nonconcurred and stated that, “Recording of Accounts Payable is a Navy
    functional responsibility.”

    Audit Response. The DFAS Cleveland Central Site Director’s comments are not
    responsive. We recognize that the Navy has certain functional responsibilities for
    financial transactions. However, DFAS, as the accountant and preparer of the
    Department of the Navy General Fund Financial Statements, and the Department
    of the Navy are responsible for coordinating and implementing internal control
    procedures to detect and prevent misstatement of reported Accounts Payable
    balances on the Navy General Fund Financial Statements. We request that DFAS
    reconsider its position and provide comments on the final report that address what
    steps have been developed or implemented individually or jointly that would
    detect and prevent a misstatement of reported Accounts Payable balances on
    Navy General Fund Financial Statements.


Management Comments Required
    The Department of the Navy, Office of the Assistant Secretary of the Navy,
    Financial Management and Comptroller did not comment on a draft of this report.
    We request that the Department of the Navy, Office of the Assistant Secretary of
    the Navy, Financial Management and Comptroller provide comments on the final
    report.




                                        10
            B. Supporting Accounts Payable
               Transactions
            DFAS did not adequately support 33 vendor payment transactions of
            199 sampled. The total dollar value of the 199 items sampled was
            approximately $1.03 billion. No supporting documentation was provided
            for 25 of the 33 transactions. The remaining eight transactions contained
            errors between what was recorded in STARS One Pay and the supporting
            documents provided. This occurred because DFAS did not have adequate
            procedures in place to readily identify and provide supporting
            documentation. Also, STARS One Pay and supporting documentation did
            not agree because of DFAS processing errors. As a result, vendor
            payment transactions totaling $143.6 million were unsupported or
            contained material errors potentially affecting Navy General Fund (NGF)
            financial reports.


Criteria
     DoD FMR on Accounts Payable, volume 4, chapter 9, section (090201) specifies
     that recorded payables amounts shall be supported by documentation that clearly
     shows the origin for the amount recorded as a payable and the terms upon which
     payments are to be made. Additionally, section (090203) specifies that Accounts
     Payable shall be recorded when supported by evidence of performance.

     DoD FMR on DoN Disbursing Operations, volume 5, chapter 11, appendix D,
     specifies that a public voucher is required to have complete supporting
     documentation in order to discharge a U.S. Government liability and charge
     expenditures to funds. Furthermore, the control, maintenance, and disposition of
     records shall prevent duplicate payments or overpayments.

     DoD FMR on Electronic Data Interchange, volume 10, chapter 17 specifies the
     guidance for implementing and using Electronic Commerce, which includes EDI
     and EFT. It also specifies that EDI transactions will be treated the same as a
     hard- copy invoice and generally it is not necessary to physically transfer the
     hard-copy documentation to the disbursing office for examination.

     5 Codification of Federal Regulations, Part 1315 establishes the requirements for
     the Prompt Payment Act of 1999, which requires that vendors be paid interest on
     any payment remitted beyond its due date.

     Under Secretary of Defense (Comptroller)/Chief Financial Officer memorandum,
     “Financial Improvement Initiative Business Rules,” June 23, 2004, states that the
     client should be able to provide supporting documentation promptly to auditors
     upon request.

     DoD OIG Memorandum, “Auditor Access for Financial Statement Audits,”
     January 24, 2005, specifies that DFAS is responsible for providing supporting
     documentation to the auditors within 2 working days.


                                         11
Selection of Vendor Payment Transactions
    DFAS provided a data file of NGF vendor payment transactions disbursed during
    the second quarter of FY 2005. The data file included 517,695 vendor payment
    transactions with a total dollar value of $4.8 billion. Each vendor payment
    transaction contained a DCN that was used to identify supporting documentation.
    We selected a sample of 199 vendor payment transactions for substantive testing.
    The total dollar value of the 199 items sampled was approximately $1.03 billion.
    See Appendix A for details on how our audit sample was selected.

    Of the 199 payments selected for review, 105 represented EDI transactions.
    According to the DoD FMR, a contractor can submit an invoice for payment
    electronically instead of hard-copy invoices. Therefore, we considered the
    105 EDI transactions to be supported by a valid invoice and performed no further
    testing. Instead, we focused on verifying the support and accuracy of the
    remaining 94 STARS One Pay transactions supported by hard-copy invoices.
    Table 2 illustrates the breakdown of the issues identified with the transaction
    sample selected for the audit.

               Table 2. Vendor Payment Transaction Sample Breakdown
                                                                       Number of
                               Description                            Transactions

     Electronic Data Interchange processed transactions in sample         105
     Manually processed transactions with supporting documentation         61
     Manually processed transactions not adequately supported - no         25
       supporting documentation received
     Manually processed transactions with errors between supporting         6
       documentation and STARS One Pay
     Manually processed transactions with information missing from          2
       supporting documentation

     Total number of vendor payment transactions sampled                  199


    To verify the accuracy and support of these 94 vendor payments, we compared
    key elements such as “Document Control Number (DCN),” “Payment Date,”
    “Invoice Net Amount,” and “Accounting Classification Reference Number
    (ACRN) Accounting Line” in STARS One Pay to the hard-copy invoices.




                                             12
Verifying Whether Vendor Payments are Supported and
  Accurate
    Unsupported Transactions. We requested supporting documentation by DCN
    for the 199 vendor payment transactions. DFAS did not provide supporting
    documentation for 25 of the 199 vendor payment transactions. Our initial request
    for support was made on December 28, 2005. We set a due date for DFAS to
    provide us the support by January 18, 2006. However, after additional
    coordination with DFAS, we extended the due date to February 9, 2006. After the
    43 days had elapsed, DFAS still did not provide support for the 25 transactions.

    While the objectives of our audit did not include the validation of account
    balances as reported on NGF Financial Statements, it is important to note that
    during a financial statement audit, DoN and DFAS would be expected to provide
    supporting documents promptly upon the request of the auditors as stated in the
    “Financial Improvement Initiative Business Rules.” The term “promptly” is
    outlined in the DoD OIG Memorandum “Auditor Access for Financial Statement
    Audits,” to mean within 2 working days. DFAS was unable to explain why they
    could not readily provide supporting documentation for the 25 transactions.
    Establishing procedures would allow DFAS to readily identify and retrieve
    supporting documentation in order to be compliant with the DoD FMR and to
    improve DoN financial statement audit readiness. The inability to readily provide
    supporting documents indicates weak internal controls and may impede future
    financial statement audits. See the Review of Internal Control section for further
    details.
    Accuracy. We identified eight vendor payment transactions that had different
    data elements on the supporting invoices than what was recorded in the STARS
    system. Of the 199 transactions sampled, 105 were EDI transactions and
    94 were non-EDI transactions. From the 94 non-EDI transactions tested, DFAS
    did not provide support for 25 vendor pay transactions (discussed previously). Of
    the 94 non-EDI transactions tested, we validated the accuracy of only 69 items.
    Of the 69 sample items, 7 had differences between STARS One Pay and the
    supporting documentation. While the variances in data did not appear to impact
    the payment of these seven transactions, it is important to note that errors were
    present and indicate a weak control environment. Data elements such as,
    “Invoice Date,” “Invoice Received Date,” and “Material Received Data” are
    critical because they impact the Prompt Payment Act calculation; if necessary,
    help to establish proper accounting of liabilities (record an Accounts Payable);
    and are an indication of the effectiveness of internal controls over the vendor
    payment process. Table 3 identifies the inaccurate data by sample item.




                                        13
                           Table 3. Inaccurate Data Items Identified
                                             Date in        Date on
                                             STARS        Supporting         Difference
    DCN                   Exception          One Pay Documentation            (Days)

5BAM6BM                   Invoice Date          02/02/2005   01/25/2005            8
5CXRSGR                   Invoice Date          01/20/2005   02/08/2005           19
5CYPGAF             Cannot Determine Dates      03/24/2005
5CCFQ4K*             Invoice Received Date      02/05/2005   03/01/2005           24
                    Material Received Date      01/01/2005   03/01/2005           59
5CWB1AE*             Invoice Received Date      03/02/2005   03/09/2005            7
                    Material Received Date      03/02/2005   03/09/2005            7
4LFES3S              Invoice Received Date      11/23/2004   12/20/2004           27
5AWB1AA              Invoice Received Date      12/17/2004   12/20/2004            3

* Multiple exceptions identified on two DCNs.

         Additionally, we identified one transaction in which information was missing
         from the supporting documentation and could not be verified. A vendor payment
         transaction, DCN 5BYYNHU, had a Material Accepted Date of 02/12/2005 and
         an Invoice Received Date of 02/15/2005 in STARS One Pay. However, we were
         not able to validate the information in STARS One Pay to the information
         contained in the supporting documentation provided by DFAS to support the
         transaction. Because we could not verify all the supporting data, we were unable
         to determine whether the vendor payment was accurately paid. Specifically, we
         could not verify whether the payment was subject to the Prompt Payment Act or
         whether a corresponding Accounts Payable was properly recorded.

         Entering Hard-Copy Invoices. Internal controls over entering financial data
         into STARS need to be strengthened. Manual vendor payment transactions
         originate from hard-copy documentation. Once received, information from the
         supporting documentation is entered into the STARS system. We identified one
         transaction where even though data was not identified in the supporting
         documentation, DFAS populated the missing information into the STARS system
         (two DCNs had multiple exceptions). For example, “Invoice Received Date” and
         “Material Received Date” were not on the supporting documentation but were
         captured in the STARS system. Because supporting documentation is considered
         to be the source of data entered in the STARS system, any variance between
         supporting documentation and the STARS system would be attributed to DFAS
         entering data that were not supported or contained manual data entry errors. Of
         the 69 non-EDI transactions tested, 8 errors represent a significant error rate.
         Management internal controls over the manual entry of vendor payment
         supporting documentation data must be improved. For a complete discussion of
         management internal controls, see the Review of Internal Controls section of this
         report. See Appendix C, Table C-2 for a complete listing of the 25 transactions
         missing supporting documentation, and Table C-3 for a complete listing of the
         eight transactions with incorrect data in the STARS accounting system.




                                                 14
Summary
     The processing and payment of vendor payment transactions with missing,
     incomplete, or inaccurate supporting documentation could negatively impact
     future NGF financial statements. Additionally, if management controls are not
     improved, the NGF Balance Sheet will continue to be subject to misstatements
     that could negatively impact the ability of DoN to obtain an unqualified audit
     opinion for future fiscal years.

     The Government Accountability Office/President’s Council on Integrity and
     Efficiency Financial Audit Manual requires auditors to establish a three percent
     Planning Materiality and a Design and Test Materiality of one percent of the
     Planning Materiality. The total value of our 199 sampled items was
     approximately $1.03 billion. Of that amount, 33 transactions were unsupported or
     inaccurate, totaling approximately $143.6 million or approximately 14 percent.
     Because the audit planning materiality threshold is three percent, the percentage
     of inaccuracy reported in the vendor payments materially affects NGF financial
     statements. When payment transactions are unsupported or inaccurate, the key
     management assertions of Existence and Completeness cannot be ascertained.
     While DoN has not represented NGF financial statements as being ready for
     audit, this condition must be corrected in order to improve the accuracy of
     amounts reported.

     The inability of DFAS to provide supporting documentation for 25 vendor
     payment transactions and the errors noted in 8 transactions clearly show non-
     compliance with the DoD FMR. The DoD FMR states that recorded payables
     amounts shall be supported by documentation that clearly shows the origin for the
     amount recorded as a payable. Additionally, it specifies that Accounts Payables
     shall be recorded when supported by evidence of performance. It is imperative
     that DFAS adequately and successfully addresses the issue of unsupported vendor
     payment transactions. DFAS was unable to provide us with timely supporting
     documentation. DFAS did not provide supporting documentation for 25 vendor
     payment transactions and it took DFAS over 40 days to provide us supporting
     documentation for only 69 vendor payment transactions. According to DoD OIG
     Memorandum, “Auditor Access for Financial Statement Audits,”
     January 24, 2005, DFAS is responsible for providing supporting documentation to
     the auditors within 2 working days. As this Memorandum pertains to financial
     statement audits, DFAS in coordination with the Navy must correct these issues
     in order to become ready for audit.


Other Matters of Interest-Obligation Data
     We noted from the 199 transactions sampled that the STARS system did not
     contain obligation data for 67 of the transactions sampled. 31 U.S.C. 1501 and
     DoD FMR, “Standards for Recording and Reviewing Commitments and
     Obligations,” volume 3, chapter 8, section 80302, specify that an amount shall be
     recorded as an obligation only when supported by documentary evidence of the
     transaction. We accessed both STARS-FL and STARS-HCM to verify the


                                         15
    obligation data of our 199 sample items. We pinpointed 67 transactions where
    STAR-FL or STARS-HCM did not show that an obligation was recorded. See
    Appendix C, Table C-4 for a complete list of the 67 transactions detected.

    We requested that DFAS provide the missing obligation data on January 3, 2006.
    We set a due date of January 18, 2006, but subsequently extended the date to
    February 9, 2006. After 36 days and multiple attempts to coordinate our request,
    DFAS still did not provide obligation data for 67 transactions. DFAS did not
    provide the obligation data because either STARS One Pay had invalid DCN and
    therefore could not be matched to an existing document or a thorough search of
    all systems was not completed to ascertain whether the obligation data was in a
    system other than STARS. DFAS must provide support for obligations associated
    with disbursements, as required by 31 U.S.C. 1501. Additionally, the DoD FMR
    requires that amounts recorded as payables be supported by documentation that
    clearly shows the basis for the amount recorded. We understood that the
    obligations were posted in some accounting system other than STARS One Pay
    because DFAS is required to pre-validate the obligation prior to disbursement.
    However, we could not complete our audit testing because of missing obligation
    data.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendations. As a result of management comments, we revised
    draft Recommendation B.2.a. to clarify the nature of actions required to improve
    existing operating procedures used to make vendor payments.

    B.1. We recommend the Director of Defense Finance and Accounting
    Service - Cleveland strengthen procedures to ensure that supporting
    documentation for all non-Electronic Data Interchange vendor payment
    transactions is adequately maintained and supports proper disbursements.
    Specifically, for the payments for the 25 vendor payment transactions
    identified where supporting documents were not provided Defense Finance
    and Accounting Service Cleveland should:

           a. Validate the payments were properly disbursed in accordance with
    the Prompt Payment Act;

           b. Ensure that the payment amounts were accurate, supported, and
    legitimate; and

          c. Verify that a corresponding Accounts Payable was properly
    recorded in the Standard Accounting and Reporting System.

    Management Comments. The Defense Finance and Accounting Service Central
    Site Director concurred and stated that DFAS would confirm that the 25 vendor
    payment transactions identified were disbursed in accordance with the Prompt
    Payment Act, and that these payment amounts were accurate, supported, and
    legitimate. The Director also stated that DFAS would further review the
                                       16
identified transactions to validate that they were properly recorded in STARS as
an Accounts Payable. The Director projected that these validations will be
complete February 1, 2007.

B.2. We recommend that Director of Defense Finance and Accounting
Service Cleveland improve payment processes and operating procedures
used to make vendor payments. Specifically, the Defense Finance and
Accounting Service should:

        a. Ensure that when key data elements are not included on
supporting documents–required by the DoD Financial Management
Regulation volume 5, chapter 11, appendix D–or when such key data
elements are not clearly supported by documentation-required by the DoD
Financial Management Regulation volume 4, chapter 9, section (090201)-the
payment is suspended until required data elements are obtained from the
certifying official;

Management Comments. The Defense Finance and Accounting Service Central
Site Director concurred and stated that DFAS currently requires key data
elements from Certifying Officials and is consequently compliant with the DoD
Financial Management Regulation. The Director further stated that this
recommendation is considered closed as of September 25, 2006.

Audit Response. Although the Defense Finance and Accounting Service Central
Site Director concurred, the comments are not responsive. DFAS requires key
data elements from Certifying Officials; however, such compliance with DoD
Financial Management Regulation does not ensure valid payment transactions.
Of the 69 non-EDI transactions tested, 8 identified errors represent a significant
error rate. Management internal controls over the manual entry of vendor
payment supporting documentation data must be improved. Moreover, the
comments do not address room for improvement in the current vendor payment
processes. By consistently suspending payments when data elements are either
absent or unsupported, DFAS will create a proactive environment that will
enhance current payment processes and operating procedures. Therefore, we
revised the recommendation and request that the Director of the Defense Finance
and Accounting Service Cleveland provide additional comments in response to
the final report identifying specific actions that will improve both vendor payment
processes and operating procedures used to make vendor payments.

       b. Develop operating procedures in coordination with Department of
the Navy, Office of the Assistant Secretary of the Navy, Financial
Management and Comptroller that allow for the identification and gathering
of transaction-level supporting documents in accordance with Under
Secretary of Defense (Comptroller)/Chief Financial Officer, “Financial
Improvement Initiative Business Rules,” dated June 23, 2004, and
Department of Defense Office of Inspector General memorandum, “Auditor
Access for Financial Statement Audits,” dated January 24, 2005;

Management Comments. The Defense Finance and Accounting Service Central
Site Director concurred and stated that Defense Finance and Accounting Service
Cleveland would coordinate with the Navy Financial Management Office and


                                    17
    develop a procedure to ensure compliance. The Director estimated the operating
    process will be complete December 1, 2008.

           c. Develop management internal control procedures that improve
    processes for identifying and supporting vendor payment transactions.
    Internal controls should include assessable units that test the accuracy of
    payments against supporting documentation and the ability to readily
    provide such documentation when required.

    Management Comments. The Defense Finance and Accounting Service Central
    Site Director concurred and stated that Defense Finance and Accounting Service
    Cleveland would develop assessable units that will test the accuracy of payments
    against supporting documentation. The Director estimated that this effort to
    address internal control measures used to identify and support vendor payment
    transactions will be complete February 1, 2007.

    Audit Response. Although the Defense Finance and Accounting Service Central
    Site Director concurred, we consider the comments partially responsive. We
    agree with the plans to develop assessable units; however, the Director did not
    identify any internal control procedures that may improve the ability to readily
    provide supporting documentation when required so that auditors may, in turn,
    provide timely and useful products. We believe creating assessable units that will
    test the accuracy of vendor payments against supporting documentation and
    improve the ability to provide timely supporting documentation will enhance
    current procedures for identifying and supporting payments. Therefore, we ask
    that the Director of Defense Finance and Accounting Service Cleveland provide
    additional comments in response to the final report identifying specific actions
    that will improve the availability of supporting documentation.

    B.3. We recommend that Department of the Navy, Office of the Assistant
    Secretary of the Navy, Financial Management and Comptroller require all
    certifying officials to provide complete and accurate supporting documents
    such as an invoice or request for payment that provides all critical data
    elements such as “Material Received Date,” “Invoice Date,” and “Invoice
    Received Date.”


Management Comments Required
    The Department of the Navy, Office of the Assistant Secretary of the Navy,
    Financial Management and Comptroller did not comment on a draft of this report.
    We request that the Department of the Navy, Office of the Assistant Secretary of
    the Navy, Financial Management and Comptroller provide comments on the final
    report.




                                        18
Appendix A. Scope and Methodology
   We performed this audit to establish whether NGF vendor payment transactions
   processed by DFAS were being paid reliably and effectively. We focused the
   audit on the areas of establishing, processing, and paying vendor payment
   transactions in accordance with established laws and regulations. Additionally,
   we evaluated retention, availability, and audit ability of supporting
   documentation. We performed the audit from May 2005 through April 2006 in
   accordance with generally accepted government auditing standards.

   In order to accomplish the audit objectives, we obtained a database file of
   517,695 NGF vendor payments from DFAS Commercial Pay Business Line
   Columbus, which included 21,301 transactions with values < 0. The database file
   was named “Audit Population – Navy General Fund Vendor Pay.” The database
   file represented vendor payment transactions processed by Charleston, Norfolk,
   San Diego, Pensacola, Pacific, and Japan DFAS paying locations during the
   second quarter FY 2005 (January through March 2005). Transactions were
   possessed and paid through STARS One Pay system. We coordinated with the
   Quantitative Methods Division (QMD), DoD OIG in developing the statistical
   sample design. QMD selected a sample of 199 STARS One Pay vendor payment
   transactions. We tested the sample transactions against established audit criteria.
   See Appendix B for a discussion of the statistical sampling methodology.

   Our testing plan included a determination about whether vendor payments were
   processed and paid accurately and proper supporting documentation was
   maintained and was readily available. To accomplish our audit objective, we
   verified the data obtained from Standard Accounting and Reporting System to the
   data presented in the supporting documentation for each of 199 sample
   transactions. Available supporting documentation was obtained from DFAS
   Columbus representatives, EDI, EDM, and Electronic Data Access electronic
   tools. Specifically, the test included determining the “Invoice Date,” “Material
   Accepted Date,” “Obligation Date,” “Accounts Payable Established Date,” and
   other key data elements contained within STARS One Pay.
   Use of Computer-Processed Data. To achieve the audit objectives we relied on
   computer-processed data contained in the “Audit Population – Navy General
   Fund Vendor Pay” database. The database contained the population of Vendor
   Pay transactions processed by DFAS Vendor Pay paying sites during second
   quarter of the FY 2005. Nothing came to our attention as a result of specified
   procedures that caused us to doubt the reliability of the computer-processed data.

   Testing the reliability of STARS One Pay was not an announced audit objective
   given the intended use of the data. Therefore, the reliability of the data was not
   assessed. However, not establishing the reliability of the database has not
   materially affected the results of the audit. Our audit included tests of the data
   contained in STAR One Pay that were verified against other independent data.
   No material discrepancies were detected that would negatively affect our audit
   results. The level of reliability of STARS One Pay data extracted from the
   database was adequate and sufficient to achieve specific audit objectives.



                                        19
    Use of Technical Assistance. QMD Analysts provided technical assistance in
    developing a sample design, and selecting a sample of vendor payment
    transactions. Specifically, QMD provided a statistically selected sample of
    199 vendor payment transactions, which were analyzed and tested to achieve the
    objectives of the audit. See Appendix B for a discussion of the statistical
    sampling methodology.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has recognized several high-risk areas within DoD. This
    report provides coverage of the Financial Management high-risk area.


Prior Coverage
    During the past 5 years, the Naval Audit Service (NAS) issued one report related
    to DoN vendor payment transactions. Unrestricted NAS reports can be accessed
    over the Internet at http://www.hq.navy.mil/NavalAudit/.

Naval Audit Service
    NAS Report No. N2005-0011, “Erroneous Payments Made to Navy Vendors,”
    December 2, 2004.




                                       20
Appendix B. Statistical Sampling Methodology
   Population. The database file represented NGF vendor payment transactions
   with 517,695 records, and a total dollar value of $4,851 million for ACRN Net
   Pay transactions. The file included 21,301 negative value transactions with a total
   dollar value of -$159.29 million.

   Sample Plan. The statisticians designed a stratified sample design by developing
   five strata based on the range of values for ACRN Net Pay transactions. An
   overall sample of 249 transactions was selected over the five strata as shown in
   the table B-1 below

                      Table B-1 Statistical Sample Plan
                ACRN Net Pay    Number of         Dollar Value              Sample
     Strata:      Range:      Transactions: of Transactions:                 Size:

        1       > $10M                        49       $     878,580,945           49
        2       > $1M - $10M                 534           1,580,813,819           50
        3       > $100K - $1 M             4,747           1,190,422,651           50
        4       > $0 -$100K              491,064           1,359,997,549           50
        5       < $0                      21,301            (159,293,852)          50

                Totals                   517,695       $ 4,850,521,112            249


   Stratum 5 was considered out of audit scope as it included transactions with
   negative values, and as such was not included in the audit analysis. This resulted
   in a revised sample size of 199 transactions out of 496,394 transactions
   distributed into four strata by ACRN Net Pay Range.

   Analysis and Interpretation. Statistical projections over the universe were not
   computed during the audit due to an incomplete population. However, the sample
   results were used to achieve the audit objectives.




                                       21
Appendix C. Audit Sample Data
        During the audit, we performed attribute testing on a statistically selected sample
        of 199 NGF vendor payment transactions processed by DFAS. As a result, we
        discovered numerous issues with the transactions evaluated including:

               •   DFAS did not establish Accounts Payable transactions in accordance
                   with DoD FMR requirements for 89 of the transactions;

               •   DFAS was not able to locate or provide supporting documentation for
                   25 of the transactions;

               •   STARS and the supporting documentation contained inaccurate or
                   missing information for eight of the transactions; and

               •   DFAS was not able to locate or provide obligation data for 67 of the
                   transactions.

                Table C-1. Improperly Established Accounts Payable

 Item      DFAS Site        DCN          Date            PIIN               AcrnNetPd

   1        Charleston   5BCAVNW       2/15/2005     N0002404C2118           $10,042,483.48
   2        Charleston   5BCAVNW       2/15/2005     N0002404C2118            10,535,068.18
   3        Charleston    5BC9ANS      2/18/2005     N0002404C2204            10,953,604.00
   4        Charleston   5BCAVNW       2/15/2005     N0002404C2118            11,061,012.44
   5        Charleston    5CCLBRS      3/17/2005     N0002404C2118            13,023,429.85
   6        Charleston    5CCLBRS      3/17/2005     N0002404C2118            13,172,506.47
   7        Charleston    5CCAVTI      3/21/2005     N0002402C2102            13,262,209.19
   8        Charleston    5CCLBRS      3/17/2005     N0002404C2118            13,681,775.61
   9        Charleston    5CCFQ4K      3/10/2005     N0002403C2116            13,743,631.00
  10          Japan      5CYPGAF       3/24/2005   DA92557FEC28000            30,471,752.35
  11          Japan      5BYYNHU       2/22/2005   DA92557FEC28000            30,505,501.73
  12         Norfolk      5AFG1DS       2/2/2005     N6927200D3170             1,284,678.74
  13          Japan      5CYPGAF       3/24/2005   DA92557FEC28000             5,884,020.63
  14         Norfolk      4LFES3S       1/3/2005     N0002404D4409             2,793,515.00
  15         Norfolk      5CFF9EM      3/24/2005     N6927200D3170             1,284,001.99
  16        Pensacola     5CX9AIK      3/31/2005     N0014097G2984             1,508,216.00
  17         Norfolk      5AFG1BF      2/22/2005     N6267004C0147             2,892,207.68
  18         Pacific     5CHB9BM       3/30/2005     N0002402D8506             1,002,967.88
  19        San Diego    5BAM6BM       2/16/2005   N0024205MDQA001             3,936,361.00
  20          Japan      5CYYFDL       3/18/2005     N6283603C5516             1,581,029.61
  21        Charleston    5CCFQ5P      3/14/2005     N0002404C2105             1,630,459.00
  22        Charleston   5ACAVPS       1/14/2005     N0002404C2104             5,624,385.12
  23         Norfolk      5ZA0D54      3/2/2005     N634085048TRNS             3,297,411.00




                                             22
       Table C-1. Improperly Established Accounts Payable – cont’d

Item   DFAS Site      DCN        Date            PIIN         AcrnNetPd

 24    Charleston   5ACYMS6     1/26/2005     N0003904F0013     $2,310,982.60
 25     Pacific      5CHI6EA    3/30/2005     FA500004D0001        126,662.97
 26    Charleston   5CCAVEM     3/14/2005     N6247402D8010        231,323.00
 27     Norfolk      5BFFLAN     2/7/2005     N6246702D8369        106,421.36
 28    San Diego    5BAVECG      2/7/2005     SPO60004D7906        295,138.08
 29     Norfolk      5CFDSJG    3/24/2005     N4002605C0006        141,667.14
 30    Charleston   5CCAVGX     3/31/2005     N6246701D0320        108,551.82
 31    Charleston   5CW9ART      3/8/2005     N000140410336        134,500.70
 32      Japan       5BYSRBS    3/17/2005     N6264904C0496        259,673.34
 33    Charleston   5ACLBBV     1/14/2005     N0014002CK003        373,971.69
 34    Charleston   5CW9DMH     3/28/2005     N0002496C2108        786,180.00
 35    San Diego     5CAEVB9    3/22/2005     N6871101D0197        109,226.61
 36    San Diego     5CATLIZ    3/29/2005     N6871184C0004        370,535.06
 37      Japan      5AYYNGT      2/2/2005     F6256297H0002        103,301.35
 38    San Diego    5AA9DYE     1/24/2005     N0002498D8503        450,303.60
 39     Norfolk      5AFFLBQ    1/12/2005     N6246704C5754        234,243.00
 40    Charleston   5ACQFBW     2/10/2005     N0002400D6000        168,000.00
 41     Norfolk      5CFC229    3/23/2005     N6247700D0114        107,585.51
 42     Norfolk      4LFCL4D     1/3/2005     N0018904P1237        868,647.17
 43     Pacific      5AHG9FZ    1/27/2005   MISC05N107OTHER        133,886.32
 44    Charleston    5BCFS1X     3/1/2005     N6246701D8306        607,890.28
 45     Norfolk      5ZA0C77    2/28/2005    N634085048TRNS        481,877.04
 46      Japan      5AYYWBC     1/13/2005     N6824604C0195        296,895.37
 47    Charleston   5BCAVKM     2/18/2005     N0018903D0008        323,357.23
 48     Norfolk      5AFA327    2/10/2005     N6247003D2083        136,499.50
 49    Pensacola    5CXQNEA     3/17/2005     N6227197G0026        169,400.00
 50     Norfolk      4KFL3DZ     1/5/2005   N00003100000GTS            369.90
 51    Charleston   4LCYME5      1/4/2005     N0010402FQ764         14,813.84
 52    Pensacola      5C50296   3/24/2005       GS23F98004             298.80
 53    San Diego     5BAPX7K     2/2/2005     GS23F98006PC1         11,693.72
 54     Norfolk      5BFL3GS     3/2/2005   N00007500000GTS            807.05
 55    Pensacola      5C50297   3/24/2005       GS23F98004             811.90
 56    San Diego    5CATKWR     3/30/2005   N4523A05RV01479             75.00
 57    San Diego     5BAPZ5D    2/28/2005     GS23F98006PC1            400.00
 58     Norfolk      5ZKY333    3/16/2005    N634085070TRNS            148.66
 59    Pensacola      5CXIILK    3/7/2005    N6832205MMARN             750.00
 60     Norfolk       5ZK4082   1/18/2005    N634085011TRNS              3.08
 61    San Diego     5CAIZLH    3/21/2005     N6671505F0006             22.65
 62    Pensacola    5AXQV2Z     1/18/2005     GS23F98006PC1          2,682.80
 63    San Diego      5A29851   1/18/2005     GS23F98006PC1          4,148.85
 64     Norfolk       5ZK7399   1/21/2005    N634085018TRNS            345.54
 65    Pensacola     5AXKXIT    1/20/2005    N6832204MNAVY             540.00
 66     Norfolk      5BFL3GK     3/3/2005   N00005400000GTS            564.90



                                      23
        Table C-1. Improperly Established Accounts Payable – cont’d

Item    DFAS Site     DCN         Date            PIIN             AcrnNetPd

  67    San Diego    4LA5ZBR    1/20/2005     GS23F98006PC1                 849.23
  68     Norfolk     5BFL3FZ     3/4/2005    N00005300000GTS              $378.40
  69    Charleston   5ACFR1R    2/10/2005     NBCH0002D0037               2,275.26
  70     Norfolk     5BFL3GA     3/3/2005    N00000400000GTS                679.10
  71    Charleston   4LC9AUH    1/14/2005     N0060002C1514                 600.00
  72     Norfolk     5AFL3FX    1/31/2005    N00007400000GTS                531.75
  73     Norfolk      5ZL1849   3/28/2005    N634085076TRNS               3,819.61
  74     Norfolk     5AFL3GJ     3/3/2005    N00007400000GTS                436.00
  75    San Diego    5BAPY8V    2/15/2005     GS23F98006PC1               2,395.00
  76     Norfolk     4LFL3GH    1/12/2005    N00007300000GTS                471.20
  77    San Diego     5A83429   1/20/2005     N6600199D5016                  10.18
  78     Norfolk     5BFFF4Y    2/28/2005     GS23F98006PC1                 300.00
  79     Norfolk      5CFZIJ2    3/4/2005    N01772000074CBA                412.20
  80     Norfolk      5AFZIQ8    2/4/2005    N14121000017CBA              1,871.20
  81    Pensacola    5CXRSGR    3/23/2005      N0014004P0938                348.19
  82    Charleston   5ACYNB4     2/9/2005     N0010403FQ088              59,326.13
  83     Norfolk     4LFCL3H    2/10/2005      N0018904P1237              1,121.79
  84     Norfolk      5AFF9FJ   1/10/2005     N6247001D6049                 399.00
  85     Norfolk     5BFL3FB    2/25/2005    N00003300000GTS                165.90
  86     Norfolk     5BF5EAY    2/14/2005    N01612000074CBA                325.40
  87    San Diego    5BASQPQ    3/22/2005      N0024402P3528              6,244.50
  88    San Diego    5AAPZ2Y    1/26/2005     GS23F98006PC1                 288.19
  89     Norfolk     5BFTM9Z     3/1/2005     DAHC2596G1610                  68.09

Total                                                          $    212,730,741.70

                Table C-2. Missing Supporting Documentation

Item    DFAS Site     DCN         Date            PIIN             AcrnNetPd
   1      Japan      5CYPGAF    03/24/2005   DA92557FEC28000         $5,884,020.63
   2     Norfolk     5BFD371    02/22/2005    N6247201D0073           1,027,909.00
   3     Norfolk     5AFA166    01/14/2005    N6247003C3065           1,441,044.00
   4     Norfolk      5AFE265   01/27/2005    N6247202C0018           2,316,799.00
   5     Norfolk     5BFFLAN    02/07/2005    N6246702D8369             106,421.36
   6     Norfolk     5AFD379    01/31/2005    N6247202D0079             250,565.26
   7     Norfolk     5AFA198    01/14/2005    N6247000C0150             158,462.00
   8     Norfolk     5AFFLBQ    01/12/2005    N6246704C5754             234,243.00
   9     Norfolk      5CFL048   03/15/2005    N6247001D1086             167,271.25
  10     Norfolk      5CFC229   03/23/2005    N6247700D0114             107,585.51
  11     Norfolk     5CFA153    03/16/2005    N0018799D6981             255,057.00
  12     Norfolk     5ZA0C77    02/28/2005   N634085048TRNS             481,877.04




                                      24
            Table C-2. Missing Supporting Documentation – cont’d

 Item    DFAS Site      DCN         Date           PIIN         AcrnNetPd
  13      Norfolk     5AFA327    02/10/2005    N6247003D2083            136,499.50
  14     Pensacola     5C50296   03/24/2005      GS23F98004                $298.80
  15      Norfolk     5BFL3GS    03/02/2005   N00007500000GTS               807.05
  16     Pensacola     5C50297   03/24/2005      GS23F98004                 811.90
  17     San Diego     5A29851   01/18/2005    GS23F98006PC1              4,148.85
  18     Pensacola    5AXKXIT    01/20/2005   N6832204MNAVY                 540.00
  19      Norfolk     5AF/3FX    01/31/2005   N00007400000GTS               531.75
  20      Norfolk      5CFZIJ2   03/04/2005   N01772000074CBA               412.20
  21      Norfolk     5AFZIQ8    02/04/2005   N14121000017CBA             1,871.20
  22      Norfolk     4LFCL3H    02/10/2005     N0018904P1237             1,121.79
  23      Norfolk      5AFF9FJ   01/10/2005    N6247001D6049                399.00
  24      Norfolk     5BF5EAY    02/14/2005   N01612000074CBA               325.40
  25      Norfolk     5BFTM9Z    03/01/2005    DAHC2596G1610                 68.09

 Total                                                              $12,579,090.58

                      Table C-3. Incorrect Data in STARS

 Item    DFAS Site     DCN         Date            PIIN         AcrnNetPd

   1     Charleston   5CCFQ4K    03/10/2005    N0002403C2116        $13,743,631.00
   2       Japan      5BYYNHU    02/22/2005   DA92557FEC28000        30,505,501.73
   3     Charleston   5CWB1AE    03/11/2005    N0002498C2104         47,533,149.00
   4     Charleston   5AWB1AA    01/11/2005    N0002401C2103          2,019,682.00
   5       Japan      5CYPGAF    03/24/2005   DA92557FEC28000        30,471,752.35
   6      Norfolk      4LFES3S   01/03/2005    N0002404D4409          2,793,515.00
   7     San Diego    5BAM6BM    02/16/2005   N0024205MDQA001         3,936,361.00
   8     Pensacola    5CXRSGR    03/23/2005     N0014004P0938               348.19

Total                                                              $131,003,940.27

                      Table C-4. Missing Obligation Data

 Item    DFAS Site      DCN         Date           PIIN         AcrnNetPd

   1     Charleston   5CC9AUA    03/25/2005    N0002497C2202        $10,403,538.31
   2     Charleston    5CCAVTI   03/21/2005    N0002402C2102         13,262,209.19
   3     Charleston   5AWB1AC    02/03/2005    N0002498C2104         19,438,935.00
   4     Charleston   5CWB1AH    03/24/2005    N0002498C2104         20,768,780.00
   5     Charleston   5CWB1AE    03/11/2005    N0002498C2104         47,533,149.00
   6     San Diego    5BAM6BM    02/16/2005   N0024205MDQA001         3,936,361.00
   7     Charleston   5AW9DEZ    01/27/2005    N0002403C2101          3,679,869.00
   8      Norfolk      5BFD371   02/22/2005    N6247201D0073          1,027,909.00
   9       Japan      5CYYFDL    03/18/2005    N6283603C5516          1,581,029.61




                                        25
                Table C-4. Missing Obligation Data – cont’d

Item   DFAS Site      DCN         Date            PIIN         AcrnNetPd

 10    Charleston   5BW9CVF     02/22/2005     N0002498C2307      2,561,442.00
 11    Charleston    5CW9BIL    03/10/2005     N0002496C2100     $1,634,224.00
 12     Norfolk      5ZA0D54    03/02/2005    N634085048TRNS      3,297,411.00
 13    Charleston   5ACYMS6     01/26/2005     N0003904F0013      2,310,982.60
 14    Charleston    5BW9BKJ    02/14/2005     N0002402C2901      3,061,400.00
 15     Pacific      5CHI6EA    03/30/2005     FA500004D0001        126,662.97
 16    Charleston    5BCQETC    03/14/2005     N0002400D6000        506,727.34
 17     Norfolk      5CFDSJG    03/24/2005     N4002605C0006        141,667.14
 18    Charleston   5BCQDXL     03/10/2005     N0002400D6000        142,553.52
 19    Charleston   5ACQDUM     02/03/2005     N0002400D6000        417,005.03
 20     Norfolk      5AFD379    01/31/2005     N6247202D0079        250,565.26
 21      Japan       5BYSRBS    03/17/2005     N6264904C0496        259,673.34
 22    Charleston   5CW9DMH     03/28/2005     N0002496C2108        786,180.00
 23    Charleston   5ACQGBD     02/15/2005     N0002400D6000        638,194.62
 24      Japan      5AYYNGT     02/02/2005     F6256297H0002        103,301.35
 25    Charleston   5ACQELQ     02/15/2005     N0002400D6000        105,590.03
 26     Norfolk      4LFCL4D    01/03/2005     N0018904P1237        868,647.17
 27     Norfolk       5BFC436   02/18/2005     N6247704D0176        197,328.00
 28     Pacific      5AHG9FZ    01/27/2005   MISC05N107OTHER        133,886.32
 29     Norfolk      5ZA0C77    02/28/2005    N634085048TRNS        481,877.04
 30    Charleston   5BCQFWB     03/10/2005     N0002400D6000        129,750.93
 31      Japan      5AYYWBC     01/13/2005     N6824604C0195        296,895.37
 32     Norfolk      4KFL3DZ    01/05/2005   N00003100000GTS            369.90
 33    Pensacola      5C50296   03/24/2005      GS23F98004              298.80
 34    Charleston   5ACQGCA     02/11/2005     N0002400D6000            262.01
 35    San Diego     5BAPX7K    02/02/2005     GS23F98006PC1         11,693.72
 36     Norfolk      5BFL3GS    03/02/2005   N00007500000GTS            807.05
 37    Pensacola      5C50297   03/24/2005      GS23F98004              811.90
 38    San Diego     5BAPZ5D    02/28/2005     GS23F98006PC1            400.00
 39     Norfolk      5ZKY333    03/16/2005    N634085070TRNS            148.66
 40    Pensacola      5CXIILK   03/07/2005    N6832205MMARN             750.00
 41     Norfolk       5ZK4082   01/18/2005    N634085011TRNS              3.08
 42    San Diego     5CAIZLH    03/21/2005     N6671505F0006             22.65
 43    Pensacola    5AXQV2Z     01/18/2005     GS23F98006PC1          2,682.80
 44    San Diego      5A29851   01/18/2005     GS23F98006PC1          4,148.85
 45     Norfolk       5ZK7399   01/21/2005    N634085018TRNS            345.54
 46    Pensacola     5AXKXIT    01/20/2005    N6832204MNAVY             540.00
 47     Norfolk      5BFL3GK    03/03/2005   N00005400000GTS            564.90
 48     Pacific      4LHG8KR    01/11/2005     NATS2005X1510             24.50
 49    San Diego     4LA5ZBR    01/20/2005     GS23F98006PC1            849.23
 50     Norfolk      5BFL3FZ    03/04/2005   N00005300000GTS            378.40
 51     Norfolk      5BFL3GA    03/03/2005   N00000400000GTS            679.10
 52     Norfolk      5AFL3FX    01/31/2005   N00007400000GTS            531.75
 53     Norfolk       5ZL1849   03/28/2005    N634085076TRNS          3,819.61
 54     Norfolk      5AFL3GJ    03/03/2005   N00007400000GTS            436.00
 55    San Diego     5BAPY8V    02/15/2005     GS23F98006PC1          2,395.00


                                      26
                 Table C-4. Missing Obligation Data – cont’d

 Item   DFAS Site      DCN         Date            PIIN         AcrnNetPd

  56     Norfolk     4LFL3GH     01/12/2005   N00007300000GTS             471.20
  57    Charleston    5ACQFLI    02/15/2005    N0002400D6000                5.93
  58    San Diego     5A83429    01/20/2005    N6600199D5016               10.18
  59     Norfolk      5BFFF4Y    02/28/2005    GS23F98006PC1             $300.00
  60     Norfolk       5CFZIJ2   03/04/2005   N01772000074CBA             412.20
  61    Charleston   5ACQBPM     01/14/2005    N0002400D6000            1,466.71
  62     Norfolk      5AFZIQ8    02/04/2005   N14121000017CBA           1,871.20
  63     Norfolk      4LFCL3H    02/10/2005     N0018904P1237           1,121.79
  64     Norfolk      5BFL3FB    02/25/2005   N00003300000GTS             165.90
  65     Norfolk     5BF5EAY     02/14/2005   N01612000074CBA             325.40
  66    San Diego    5AAPZ2Y     01/26/2005    GS23F98006PC1              288.19
  67     Norfolk     5BFTM9Z     03/01/2005    DAHC2596G1610               68.09

Total                                                            $140,123,215.38




                                       27
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          28
Defense Finance and Accounting Service -
Cleveland Comments




                      29
30
31
Final Report
 Reference




Revised




               32
33
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Raymond D. Kidd
Edward A. Blair
Dharam V. Jain
Joseph A. Shook
Ann Thompson
S. Peter Nahornyj
Helen Zhitnikova
Joanna B. Sokolowski
Cheryl L. Dagy
